  FEDERAL TRADE COMMISSION
 OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS
   October 1, 2012—March 31, 2013
           Report No. 49
ABOVE: THIS RELIEF ENTITLED “FOREIGN TRADE” WAS CREATED BY ARTIST CARL L.
SCHMITZ IN 1938
IT IS ONE OF FOUR LIMESTONE RELIEFS ABOVE THE ENTRANCE DOORS OF THE FEDERAL
TRADE COMMISSION BUILDING ON 600 PENNSYLVANIA AVE. NW, WASHINGTON DC.




COVER: The cover is a close-up of the Federal Trade Commission Building.
             FEDERAL TRADE COMMISSION MISSION
The Federal Trade Commission (FTC) is an independent agency of the
United States government established in 1914 by the Federal Trade
Commission Act (15 U.S.C . §41-58, as amended). The FTC has two critical
goals: protecting consumers and maintaining competition. The FTC’s
mission is to prevent business practices that are anticompetitive or deceptive
or unfair to consumers; to enhance informed consumer choices and public
understanding of the competitive process; and to accomplish these mission
without unduly burdening legitimate business activity.


The FTC’s mission is carried out by three bureaus: The Bureau of Consumer
Protection, the Bureau of Competition and the Bureau of Economics. Work
is aided by offices including the Office of General Counsel, the Office of
Inspector General, the Office of International Affairs, the Office of the
Executive Director, and seven regional offices. The FTC is headed by a
commission composed of five commissioners, nominated by the President
and confirmed by the Senate, each serving a seven-year term.


The FTC seeks to ensure that the nation’s markets are competitive, efficient
and free from undue restrictions. The FTC also seeks to improve the
operations of the marketplace by ending unfair and deceptive practices with
emphasis on those practices that might unreasonably restrict or inhibit the
free exercise of informed choice by consumers. The FTC relies on economic
analysis to support its law enforcement efforts and to contribute to the
economic policy deliberations of Congress, the Executive Branch and the
public.


Many of the FTC’s resources can be accessed through its website
www.ftc.gov.
ABOVE: THIS RELIEF ENTITLED “SHIPPING” WAS CREATED BY ARTIST ROBERT LAURENT
IN 1938




More information on the National Register of Historic Places is available on the GSA Historic Build-
ings Program website http://www.gsa.gov/portal/category/21010.
TABLE OF CONTENTS


A MESSAGE FROM THE INSPECTOR GENERAL                                     1

INTRODUCTION AND DEFINITIONS                                             2

AUDITS AND RELATED ACTIVITIES                                            4
      Completed Audits and Reports                                       4
      Audit Resolution and Corrective Actions                            5
      Audit Activities Planned or In-Progress                            5
      Other Potential Reviews                                            6

INVESTIGATIVE ACTIVITIES                                                 7
      Investigative Summary                                              7
      Matters Referred for Prosecution                                   7


OTHER ACTIVITIES                                                         8
     Liaison with Other Agencies                                         8
      Activities Within the Inspector General Community                  8
      Significant Management Decisions                                   8
      Access to Information                                              9
      Review of Legislation                                              9
      Peer Review Activities                                             10

TABLE 1: REPORTS WITH   RECOMMENDATIONS ON WHICH CORRECTIVE ACTION HAS
NOT BEEN COMPLETED                                                       11

TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS          14

TABLE 3: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE                                               15

TABLE 4: SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS             16

CONTACTING THE OFFICE OF INSPECTOR GENERAL                               17
  

 
    INTRODUCTION AND DEFINITIONS

 

    THE    MISSION OF THE       OFFICE    OF   INSPECTOR GENERAL        IS TO PROMOTE
    ECONOMY, EFFICIENCY, AND EFFECTIVENESS BY DETECTING AND PREVENTING
    WASTE, FRAUD, AND ABUSE.




    In compliance with the Inspector General Act Amendments of 1988 (5 U.S.C. app.), the
    Office of Inspector General (OIG) was established in 1989 as an independent and
    objective organization within the FTC.

    Under the Inspector General Act, the OIG is responsible for conducting audits and
    investigations relating to the programs and operations of the FTC. Audits are conducted
    for the purpose of finding and preventing fraud, waste and abuse and to promote
    economy, efficiency and effectiveness within the agency. OIG investigations seek out
    facts related to allegations of wrongdoing on the part of FTC employees and individuals
    or entities having contracts with or obtaining benefits from the agency.

    Individuals who wish to file a complaint about the business practices of a particular
    company or entity, or allegations of identity theft, deceptive advertising practices or
    consumer fraud should file a complaint with the FTC Bureau of Consumer Protection.

    Complaints to the OIG from the public or from an FTC employee can be made
    anonymously. The identity of an FTC employee who reports waste or wrongdoing to
    the OIG will be protected from disclosure consistent with provisions of the Inspector
    General Act. In addition, the Inspector General Act and the Whistleblower Protection
    Act prohibit reprisals against employees for complaining to or cooperating with the
    OIG.

    The OIG is required by law to prepare a semiannual report summarizing the activities
    of the Office during the immediately preceding six-month period. The report is sent to
    the FTC Chairman, the President of the Senate, the Speaker of the House and FTC’s
    appropriating and authorizing committees. This dual reporting requirement facilitates
    and ensures the independence of the Office. The OIG has a budget of $1,059,000 for
    fiscal year 2013.




                              2 ‐ SEMIANNUAL REPORT TO CONGRESS
WE PERFORM THE FOLLOWING SERVICES:


ATTESTATIONS involve examining, reviewing, or applying agreed-upon procedures on a
 subject matter, or an assertion about a subject matter. Attestations can have a broad
 range of financial or nonfinancial objectives such as the FTC’s compliance with specific
 laws and regulations, validation of performance against performance measures or
 reasonableness of cost.

PERFORMANCE AUDITS address the efficiency, effectiveness, and economy of the FTC’s
 programs, activities, and functions; provide information to responsible parties to
 improve public accountability; facilitate oversight and decision making; and initiate
 corrective actions as needed.

FINANCIAL AUDITS provide an independent assessment of whether financial statements
 are presented fairly in accordance with generally accepted accounting principles.
 Reporting on financial audits in accordance with Government Auditing Standards also
 includes reports on internal control, and compliance with provisions of laws, regulations,
 and contracts as they relate to financial transactions, systems and processes.

INVESTIGATIONS are conducted based on alleged or suspected fraud, waste, abuse or
 gross mismanagement, employee and contractor misconduct, and criminal and civil
 violations of law that have an impact on the FTC’s programs and operations. The OIG
 refers matters to the U.S. Department of Justice whenever the OIG has reasonable
 grounds to believe there has been a violation of federal criminal law. The OIG also
 identifies fraud indicators and recommends measures to management to improve the
 agency’s ability to protect itself against fraud and other wrongdoing.




                              SEMIANNUAL REPORT TO CONGRESS ‐ 3
                                                 16th consecutive year the FTC received an
                                                 unqualified opinion, the highest opinion given
                                                 by independent auditors. As a result of the
                                                 audit of FTC’s financial statements for the
                                                 year ended September 30, 2012, DJHPM  
                                                 found:

                                                    The financial statements were presented
                                                      fairly, in all material respects, in
                                                      conformity with U.S. generally accepted
                                                      accounting principles,

                                                    No material weaknesses in internal control
                                                      over financial reporting (including
                                                      safeguarding assets), and no reportable
                                                      noncompliance with laws and regulations
      AUDITS AND RELATED
                                                      tested.
          ACTIVITIES
                                                 Management Letter for FTC Audited
Completed Audits and Reports                     Financial Statements FY 2012

During this period, we issued the FY 2012        In November 2012, we issued the audit
financial statement audit report, the related    opinion on the fiscal year 2012 financial
management letter for the financial statement    statements of the FTC. Our report also
audit report, and the required assessment of     included reports on internal control and our
FTC’s compliance with the Improper               evaluation of the FTC’s compliance with
Payments Elimination and Recovery Act of         provisions of selected laws and regulations for
2010 (IPERA).                                    the fiscal year ended September 30, 2012.

Audit of the FTC Financial Statements for        The purpose of the management letter is to
FY 2012                                          present issues identified during the audit of
                                                 FTC’s financial statements regarding certain
Federal law requires that the FTC obtain an      internal controls and accounting procedures
annual independent audit of its financial        and to recommend actions to address these
statements, which the OIG oversees. We           issues. We do not consider them to be
contracted with the independent public           material weaknesses or significant deficiencies
accounting firm of Dembo, Jones, Healy,          in relation to FTC’s financial statements.
Pennington & Marshall, P.C. (DJHPM) under        Nonetheless, we believe that they warrant
a multiyear contract for which the OIG serves    management’s attention and action.
as the Contracting Officer’s Representative
(COR). The oversight of the contractor           We made five recommendations for
ensures that the audit complies with generally   strengthening FTC’s internal controls and
accepted government auditing standards and       accounting procedures. In its response, FTC
meets contract requirements.                     concurred with all our recommendations and
                                                 described actions it had taken to address each
The audit was performed in accordance with       issue. These issues addressed controls in the
U.S. generally accepted government auditing      following areas:
standards and OMB audit guidance. For the



                                  4 ‐ SEMIANNUAL REPORT TO CONGRESS
 

       Capitalization policies and procedures
                                                        Audit of the FTC Financial Statements
       Documentation of client controls for its       for FY 2013
         independent service organization
                                                        A financial statement audit is required
       Recording of obligations                       annually under the Accountability of Tax
                                                        Dollars Act of 2002. We contract with an
       Understatement of accounts payable, and        independent public accountant to perform
                                                        this work. The OIG serves as the COR and
       Year-end closing procedures                    provides oversight on the contract. The
                                                        purpose of the audit is to express an opinion
    Management continues it’s work on issues            on the financial statements of the FTC for
    identified in prior years, as detailed in Table 1   the fiscal year ending September 30, 2013.
    at the end of this report.                          The audit will also test the internal controls
                                                        over financial reporting and assess
    Improper Payments Elimination and                   compliance with selected laws and
    Recovery Act of 2010 (IPERA)                        regulations. The audited financial statements
                                                        are included in the financial section of the
    IPERA requires the OIG to assess the FTC’s          agency’s Performance and Accountability
    compliance with improper payment                    Report to be issued in November 2013.
    requirements. The OIG determined that the
    FTC is compliant with the requirements of           Review of FTC FISMA Implementation
    IPERA. The FTC published a Performance              for FY 2013
    Accountability Report (PAR) and conducted
    a risk assessment to identify any program           FISMA requires an annual evaluation of each
    that constitutes a high risk for improper           agency’s information security program and
    payments and considers all of its payments to       practices to determine their effectiveness.
    be low risk.                                        The evaluation is performed by the Inspector
                                                        General or by an independent external
    Audit Resolution and Corrective Actions             auditor, as determined by the Inspector
                                                        General.
    At the end of this reporting period, the FTC
    offices and bureaus continue to make                To assist us in conducting this review, we
    progress in implementing open                       hire an independent consultant to perform
    recommendations. Based on actions taken             this work. The OIG acts as the COR and
    by FTC management the OIG closed one
    recommendation.        Table 1 shows all            performs oversight during the execution of
    recommendations open 180 days or more on            this contract. The review includes evaluating
    which corrective actions are still in progress.     the adequacy of the FTC’s information
                                                        security program and practices for its major
    Audit and Other Activites Planned or In-            systems.
    Progress

    The OIG will initiate two mandatory reviews
    during the next reporting period that will
    assess the FTC’s financial oversight and
    information security.




                                    SEMIANNUAL REPORT TO CONGRESS ‐ 5
Other Potential Reviews                               Congressional Requests

During the next reporting period, we will con-        During the period, we received three requests
duct
     research and consider further audit work in      from Congress:
the following areas:
                                                         Unimplemented audit recommendations—
   The FTC’s move to Constitution Center to              the Committee on Oversight and Govern-
     assess whether planning has been adequate             ment Reform requested input from IGs on
     to control overall costs, and specific risks          outstanding recommendations for reducing
     related to information technology transiti-           waste and increasing efficiency in Executive
     tion issues.                                          Branch agencies. We reported that the FTC
                                                           OIG currently has no unimplemented cost
   Review of purchase card programs to identi-           savings recommendations.
     fy and analyze the risks of illegal, improper,
     or erroneous purchases and payments.                Climate change—the Bicameral Task Force
                                                           on Climate Change requested assistance
Inspection and Evaluation               Activities         from IGs in assessing whether the FTC is
Planned or In-Progress                                     doing everything it can do to confront the
                                                           growing threat of climate change. Our as-
The FTC is constantly challenged to manage its             sessment is in process and will be completed
limited resources in a manner that will maximize           by the end of May, 2013.
its desired outcome to prevent business practic-
es that are anticompetive or deceptive or unfair         Press leaks—Chairman Darrell Issa, House
to consumers. A complex marketplace, ever                  Committee on Oversight and Government
evolving fraud schemes, declining budgets, and             Reform requested that the OIG investigate
increasing workloads require continuous reas-              whether the FTC Commission, or its staff,
sessment of management practices in achieving              has shared nonpublic information with the
that objective.                                            public or the press about their investigation
                                                           into whether Google has violated the FTC
In 2013, the OIG plans to evaluate policies and            Act.
procedures for case selection and management
with the intent of identifying and rcommending
opportunities to further improve the efficiency
and effectiveness of FTC programs.




                                    6 ‐ SEMIANNUAL REPORT TO CONGRESS
                                                    investigative activities for the six-month
                                                    period ending March 31, 2013:

                                                       Cases pending as of 10/1/12            6
                                                       PLUS: New cases                        3
                                                       LESS: Cases closed                     0
                                                       Cases pending as of 3/31/12            9

                                                    Lottery Scams

INVESTIGATIVE ACTIVITIES                            In addition to the complaints above, the OIG
                                                    receives complaints from individuals who
The Inspector General is authorized by the          reported impersonations of FTC staff in
IG Act to receive and investigate allegations       relation to lottery and sweepstakes winnings.
of employee misconduct as well as fraud,            These complaints are incorporated into an
waste and abuse occurring within FTC                ongoing investigation run by a multi-agency
programs and operations. Matters of possible        task force in which we participate. For FY
wrongdoing are referred to the OIG in the           2013, there have been 5 indictments related to
form of allegations or complaints from a            the lottery task force. One person was
variety of sources, including FTC employees,        sentenced to 9 years in Federal prison and
other government agencies and the general           was ordered to pay $188,503 in restitution.
public. Reported incidents of possible fraud,
waste and abuse can give rise to                    Bogus Email
administrative, civil or criminal investigations.
                                                    During this reporting period, we were
Investigative Summary                               notified of a suspicious email received by
                                                    many small business owners. The email
During this reporting period, the OIG               purported to be from the FTC advising the
received 44 consumer complaints and other           businesses of a consumer complaint and
inquiries and reports of possible wrongdoing.       threatening to levy a fine against them if they
Of the 44 complaints, 24 involved issues that       failed to comply with the instructions within
fall under the jurisdiction of FTC program          the email. The email prompted owners to
components (identity theft, credit repair, etc.)    click on an embedded link in the email.
and not the OIG. These matters were                 When the link is clicked, malicious code
referred to the appropriate FTC component           attempts to activate. It was successfully
for disposition.                                    stopped by most anti-virus software. We
                                                    were able to trace the origin of the email and
Of the remaining complaints, the OIG                contact the Internet Service Provider (ISP)
opened 3 new investigations and 8 complaints        who closed the account after learning how it
were closed with no further OIG action.             was being used.
Three complaints were referred to other
federal agencies with appropriate jurisdiction.     Matters Referred for Prosecution
The remaining complaints resulted in six
preliminary inquiries that required minimal         During this reporting period the OIG did not
investigative effort; all have been closed.         refer any new matters to the Department of
                                                    Justice (DOJ) for consideration of potential
The following is a summary of the OIG's             criminal action.




                                  SEMIANNUAL REPORT TO CONGRESS ‐ 7
  OIG Outreach                                       Our Lead Investigator is an active participant
                                                     in the Metro Area Fraud Task Force headed
  During this reporting period, the OIG              by the Secret Service. This task force is made
  instituted an educational outreach program.        up of law enforcement professionals in the
  We visited the FTC’s Atlanta, Georgia and          Washington, DC metro area who work
  Cleveland, Ohio regional offices to introduce      together to identify suspects and solve
  the OIG and educate staff members on our           various crimes.
  mission at the FTC.
                                                     Our Lead Investigator also assisted the
  OTHER ACTIVITIES                                   Federal Maritime Commision OIG in an
                                                     investigation, requested by Congress, related
  Liaison with Other Agencies                        to the use of key logging software.
  In conducting criminal investigations, the         Our Audit Manager participates regularly in
  OIG has provided support to, sought
  assistance from and worked jointly with other      the monthly meeting of the Financial
  law enforcement agencies to include the            Statements Audit Network (FSAN), a CIGIE
  Federal Bureau of Investigation, United States     subcommittee. She also teaches the financial
  Postal Service OIG, Department of                  statement section of the CIGIE Peer Review
  Homeland Security, United States Postal            training offered to the greater OIG
  Inspection Service, the Federal Protective
  Service, the Federal Maritime Commission           community. Additionally she is currently
  OIG, the United States Marshal Service, the        participating in two OIG workgroups: the
  Internal Revenue Service, the New York State       revision of the GAO/CIGIE Financial Audit
  Troopers, the Maricopa County Attorney’s           Manual, and the review of OMB Bulletin No.
  Office as well as other local, state and Federal   09-33 Audit Requirements for Federal Financial
  law enforcement agencies.
                                                     Statements.
  Activities within the Inspector General
  Community                                          Significant Management Decisions

  The FTC IG is an active participant in the         Section 5(a)(12) of the Inspector General Act
  Council of the Inspectors General on               requires that if the IG disagrees with any
  Integrity and Efficiency (CIGIE), a council of     significant management decision, such
  inspectors general that promote collaboration      disagreement must be reported in the
  on integrity, economy, and efficiency issues       semiannual report to Congress. Further,
  that transcend individual agencies. The IG         Section 5(a)(11) of the Act requires that any
  also participates in periodic meetings designed    decision by management to change its
  to address issues common to smaller OIGs.          response to a significant resolved audit
                                                     finding must also be disclosed in the
  Our IG Counsel participates regularly in the       semiannual report. For this reporting period
  monthly meeting of the Council of Counsels         there were no significant final management
  to Inspectors General (CCIG). Additionally,        decisions made with which the OIG
  our counsel contributes to the legal discourse     disagreed, and management did not revise any
  within that Council on matters that are            earlier decisions on OIG audit
  relevant to the entire IG community.               recommendations.




                                 8 ‐ SEMIANNUAL REPORT TO CONGRESS
Access to Information                                

The IG is to be provided with ready access to
                                                     
all agency records, information, or assistance
when conducting an investigation or audit.
Section 6(b)(2) of the IG Act requires the IG        
to report to the agency head, without delay, if      
the IG believes that access to required
information, records or assistance has been
unreasonably refused, or otherwise has not
been provided. A summary of each report
submitted to the agency head in compliance
with Section 6(b)(2) must be provided in the
semiannual report in accordance with Section 5
(a)(5) of the Act. During this reporting period,
the OIG did not encounter a problem in
obtaining assistance or access to agency
records.

Review of Legislation

Section 4(a)(2) of the IG Act authorizes the IG
to review and comment on proposed
legislation or regulations relating to the agency
or, upon request, affecting the operations of
the OIG. During this reporting period, the
OIG reviewed no legislation.



 




 

 

 

 

 




                                 SEMIANNUAL REPORT TO CONGRESS ‐ 9
Appendix: Peer Review Activity
                                                             commendations and have initiated cor-
Section 989C of the Dodd-Frank Act contains
additional semiannual reporting requirements                 rective actions.
pertaining to peer review reports. Federal In-
spectors
          General are required to engage in peer      The system review report is posted on our Web
review processes related to both their audit and      site at FTC Office of Inspector General.
investigative operations. In keeping with Section
989C, the FTC OIG is reporting the following          Investigative Peer Reviews
information related to its peer review activities.
These activities cover our role as both the re-       OIGs with statutory law enforcement authority
viewed and the reviewing OIG and relate to            pursuant to Section 6(e) of the Inspector Gen-
both audit and investigative peer reviews.            eral Act are subject to a peer review no less than
                                                      once every three years. The FTC OIG does not
Audit Peer Reviews                                    have statutory law enforcement authority.
                                                      Therefore, our investigative organization is not
On a 3-year cycle, peer reviews are conducted of      required to have a peer review. However, the
an OIG audit organization’s system of quality         FTC OIG voluntarily participates in the peer
control in accordance with the CIGIE Guide for        review process.
Conducting External Peer Reviews of the Audit
Organizations of Federal Offices of Inspector         While no peer review was conducted during this
General. These guidelines are based on require-       reporting period, the FTC OIG investigative op-
ments in the Government Auditing Standards. Fed-      eration was the subject of a peer review conduct-
eral audit organizations can receive a rating of      ed by the Federal Election Commission (FEC)
pass, pass with deficiencies or fail.
                                                      OIG in 2012. FEC issued its final report to us
   The FTC OIG was the subject of a peer re-        in March 2012, which opined that our system of
     view of its audit organization during the pre-   internal safeguards and management procedures
     vious period ending September 2012. The          was in compliance with the quality standards for
     U.S. Election Assistance Commission OIG          investigations.
     conducted the review and issued its system
     review report on September 7, 2012. In the
     U.S. Election Assistance Commission OIG’s        Peer Review of CFTC OIG
     opinion, the system of quality control for our
     audit organization in effect for the year end-   During this reporting period, the FTC OIG con-
     ed March 31, 2012, had been suitably de-         ducted an investigative peer review of the Com-
     signed and complied with to provide our of-
                                                      modity Futures Trading Commission (CFTC)
     fice with reasonable assurance of performing
     and reporting in conformity with applicable      OIG.
     professional standards in all material re-
     spects. We received a peer review rating of      We issued the final report to CFTC OIG in
     pass.                                            March 2013 opining that it is in compliance with
                                                      the quality standards for investigations.
   The report’s accompanying letter of com-
     ment contained two recommendations that,
     while not affecting the overall opinion, were
     designed to further strengthen the system of
     quality control in the FTC OIG audit organi-
     zation. We agreed with the findings and rec-



                                    10 ‐ SEMIANNUAL REPORT TO CONGRESS
SIGNIFICANT RECOMMENDATIONS FROM PREVIOUS SEMIANNUAL REPORTS
ON WHICH CORRECTIVE ACTIONS HAVE NOT BEEN COMPLETED

The IG Act, Section 5(a)(3), requires an identification of each significant recommendation de-
scribed in previous semiannual reports for which corrective action had not been completed.
This table shows the corrective actions management has agreed to implement but has not com-
pleted for recommndations that are open 180 days or more. The information in this table is
based on (1) information supplied by FTC’s Financial Management Office (FMO), which admin-
isters management’s audit resolution activities and (2) the OIG’s determination of closed recom-
mendations.

Recommendations are closed when (a) FMO notifies the OIG that corrective actions are com-
pleted or (b) in the case of recommendations that the OIG determines to be particularly signifi-
cant, after the OIG confirms that corrective actions have been completed and are responsive.

CLOSED RECOMMENDATIONS

 Report No/Date/ Title     Significant              Brief Summary of Planned Corrective Actions
                           Recommendation
 AR 11-003                 Update Administrative    Based on review of documents provided by
                           Manual for training of   Management, OIG concurs that Management has
 Follow-up Review of FTC   both cardholders and     completed actions that addressed this
 Purchase Card
                           cardholders’ Approving   recommendation.
 January 2011              Officials.
                                                                     CLOSED




                               SEMIANNUAL REPORT TO CONGRESS ‐ 11
TABLE 1: REPORTS WITH RECOMMENDATIONS ON WHICH CORRECTIVE AC-
TION HAS NOT BEEN COMPLETED

                                                                                                           

 Report No/Date/ Title   Significant               Brief Summary of Planned Corrective Actions
                         Recommendation

 AR 09-001A              Reporting Function in     Management continues to work with the service
                         Oracle Needs              provider on the inability of Oracle Federal
 Financial Statement     Improvement               Financials version R12 to produce an open invoice
 Management Letter
 FY 2008                                           listing (aka Accounts Payable Trail Balance).
                                                   Obtaining a solution is targeted for July 31, 2013.
 February 2009
                                                   The OIG will validate Management’s corrective
                                                   actions during the financial statement audit for FY
                                                   2013.


 AR 10-001A              Close out Procedures on   FMO will review and enforce its closeout
                         Contracts Need            procedures and re-emphasize through outreach
 Financial Statement     Improvement               and training the role of the COR in timely review
 Management Letter
 FY 2009                                           and de-obligation of expired contracts. The initial
                                                   phase of this review is targeted for the end of July
 May 2010                                          2013.
                                                   The OIG will validate Management’s corrective
                                                   actions during the financial statement audit for FY
                                                   2013.

 AR 11-001A              Contract Files Lack       FMO will review and, if necessary, update its
                         Documentation             standard operating procedures for file
 Financial Statement                               documentation and provide training to all
 Management Letter FY
 2010                                              acquisition staff to ensure adherence. The initial
                                                   phase of this review is targeted for the end of June
 April 2011                                        2013.
                                                   The OIG will validate Management’s corrective
                                                   actions during the financial statement audit for FY
                                                   2013.


 AR 11-001A              Fraud Risk Assessment     FMO will incorporate high fraud risk areas
                         Can Enhance FMFIA         identified through its Fraud Risk Assessments into
 Financial Statement                               its annual statement of assurance process.
 Management Letter
 FY 2010                                           Completion is targeted for September 30, 2013.
                                                   The OIG will validate Management’s corrective
 April 2011
                                                   actions during the financial statement audit for FY
                                                   2013.




                              12 ‐ SEMIANNUAL REPORT TO CONGRESS
TABLE 1: REPORTS WITH RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED (CONTINUED)

 Report No/Date/ Title      Significant               Brief Summary of Planned Corrective Actions
                            Recommendation
 AR 11-004                  Evaluate and Install      The Administrative Services Office (ASO), with
                            Inventory Software        the assistance of the Office of Chief Information
 Audit of the FTC                                     Officer, has been transitioning to its inventory
 Warehouse
                                                      control software system. After completion of
 April 2011                                           testing and training, conversion to a sole inventory
                                                      management system is expected to be no later that
                                                      October 1, 2013.
                                                      The OIG will validate Management’s corrective
                                                      actions after October 1, 2013.

 AR 12-002                 To improve FTC security    Management concurred with the
                           and privacy programs and   recommendations and is either in the process of
 Independent Assessment of bring them current with    implementing or has implemented actions to
 the FTC Implementation of OMB and NIST guidance,
 FISMA for FY 2011         11 recommendations for     address the recommendations.
                           improvement were made      The OIG will validate Management’s corrective
 December 2011             in the areas of risk
                                                      actions during the next Semiannual reporting
                           management, capital
                           planning and the           period.
                           information security
                           continuous monitoring
                           program.




                              SEMIANNUAL REPORT TO CONGRESS ‐ 13
TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS

                                                                                                 

                                                                   Dollar Value


                                                       Number      Questioned     Unsupported
                                                                   Costs          Costs


A.   For which no management decision has been         0           0              0
     made by the commencement of the reporting
     period


B.   Which were issued during the reporting period     0           0              0



     Subtotals (A+B)                                   0           0              0



C.   For which a management decision was made          0           0              0
     during the reporting period


     (i) dollar value of the disallowed costs          0           0              0



     (ii) dollar value of the cost not disallowed      0           0              0



D.   For which no management decision was made         0           0              0
     by the end of the reporting period




                                    14 ‐ SEMIANNUAL REPORT TO CONGRESS
 



         TABLE 3: INSPECTOR GENERAL ISSUED REPORTS WITH                                            
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE                                               

                                                                                                   
                                                                                                       

                              

                              

 
                                                                              Number   Dollar Value
 
     

        A. For which no management decision has been made by the              0        0
           commencement of the reporting period
 
     
        B   Which were issued during this reporting period                    0        0

        C. For which a management decision was made during the reporting      0        0
           period


            (i) dollar value of recommendations that were agreed to by        0        0
            management


            - based on proposed management actions                            0        0

            - based on proposed legislative action                            0        0

            (ii) dollar value of recommendations that were not agreed to by   0        0
            management


        D. For which no management decision has been made by the end of       0        0
           the reporting period




                                       SEMIANNUAL REPORT TO CONGRESS ‐ 15
    TABLE 4: SUMMARY OF INSPECTOR GENERAL REPORTING
    REQUIREMENTS
 



     IG ACT
                        Reporting Requirement                                              Page(s)
     Reference

     Section 4(a)(2)    Review of legislation and regulations                                  9


     Section 5(a)(l)    Significant problems, abuses and deficiencies                         4-5


                        Recommendations with respect to significant problems, abuses
     Section 5(a)(2)                                                                          4-5
                        and deficiencies

                        Prior significant recommendations on which corrective actions
     Section 5(a)(3)                                                                         12-13
                        have not been made

     Section 5(a)(4)    Matters referred to prosecutive authorities                            7

     Section 5(a)(5)    Summary of instances where information was refused                     9


                        List of audit reports by subject matter, showing dollar value of
     Section 5(a)(6)                                                                         14-15
                        questioned costs and funds put to better use

     Section 5(a)(7)    Summary of each particularly significant report                       4-7

                        Statistical tables showing number of reports and dollar value of
     Section 5(a)(8)                                                                          14
                        questioned costs


                        Statistical tables showing number of reports and dollar value of
     Section 5(a)(9)                                                                          15
                        recommendations that funds be put to better use


                      Summary of each audit issued before this reporting period for
     Section 5(a)(10) which no management decision was made by the end of the                N/A
                      reporting period

     Section 5(a)(11) Significant revised management decisions                                 8

                        Significant management decisions with which the inspector
     Section 5(a)(12)                                                                          8
                        general disagrees




                                  16 ‐ SEMIANNUAL REPORT TO CONGRESS
              CONTACTING THE OFFICE OF INSPECTOR GENERAL


 


         HELP PROMOTE INTEGRITY, ECONOMY AND EFFICIENCY


     REPORT SUSPECTED FRAUD, WASTE, ABUSE OR MISMANAGEMENT


               COMPLAINTS MAY BE MADE ANONYMOUSLY



                      OFFICE OF INSPECTOR GENERAL
                   600 PENNSYLVANIA AVENUE, NW NJ-1110
                         WASHINGTON, D.C. 20580


                          HOTLINE: (202) 326-2800
                             FAX: (202) 326-2034
                           EMAIL: OIG@FTC.GOV




         ANY INFORMATION YOU PROVIDE WILL BE HELD IN CONFIDENCE.
    HOWEVER, PROVIDING YOUR NAME AND MEANS OF COMMUNICATING WITH YOU
                 MAY ENHANCE OUR ABILITY TO INVESTIGATE.




                        SEMIANNUAL REPORT TO CONGRESS ‐ 17
 




    1 
